HHS/OIG, Audit - "Review of Medicaid Targeted Case Management Services
Rendered by the Georgia Department of Juvenile Justice During Federal Fiscal
Years 2003 and 2004," (A-04-06-00022)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Medicaid Targeted Case Management Services Rendered by the Georgia Department
of Juvenile Justice During Federal Fiscal Years 2003 and 2004," (A-04-06-00022)
December 10, 2007
Complete
Text of Report is available in PDF format (376 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Georgia
Department of Community Health (the Medicaid agency) claimed costs for targeted
case management (TCM) services for individuals deemed at risk of incarceration,
in compliance with Federal and State requirements.  Based on our sample results,
we estimate that during Federal fiscal years (FY) 2003 and 2004, the Medicaid
agency claimed $4,654,984 ($2,835,507 Federal share) in TCM costs for services
not in compliance with Federal and State requirements.  The Medicaid agency
inappropriately claimed Federal financial participation (FFP) for unallowable services provided by the Georgia Department of
Juvenile Justice (DJJ) because neither the Medicaid agency nor DJJ had adequate
controls to ensure that the services claimed were eligible for FFP.
We recommended that the Medicaid agency refund to the Federal Government the
$2,835,507 estimated overpayment for Federal FYs 2003 and 2004, examine claims
made during the period subsequent to our audit for compliance with these
requirements and refund any overpayments identified, and establish monitoring
procedures to provide reasonable assurance that DJJ complies with Federal and
State requirements in submitting TCM claims.  The Medicaid agency stated that it
would refund the Federal share once a final determination has been made as to
the overpayment for Federal FYs 2003 and 2004 and that it would comply with our
second and third recommendations.